U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Medical Association, et al. v. Alex M. Azar, II,
Secretary of Health and Human Service, et al,
S.Ct. No. 20-429

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 1,
2020, and placed on the docket on October 5, 2020. The government’s response is due on
November 4, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 4, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0429
AMERICAN MEDICAL ASSN., ET AL.
ALEX M. AZAR, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

PAUL REINHERZ QUITMAN WOLFSON
WILMER CUTLER PICKERING HALE AND
DORR, LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6390
PAUL.WOLFSON@WILMERHALE.COM

